Office of Inspector General
    Audit Report


  WEAKNESSES IN THE OFFICE OF
   THE SECRETARY'S ACQUISITION
  FUNCTION LIMIT ITS CAPACITY TO
      SUPPORT DOT'S MISSION

          Office of the Secretary
        Report Number: ZA-2011-119
         Date Issued: May 25, 2011
           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Weaknesses in the Office of              Date:    May 25, 2011
           the Secretary's Acquisition Function Limit Its
           Capacity To Support DOT's Mission
           Report Number ZA-2011-119

  From:    Lou Dixon                                               Reply to
                                                                   Attn. of:   JA-1
           Principal Assistant Inspector General for Audit and
           Evaluation

    To:    Deputy Secretary
           Deputy Assistant Secretary for Administration

           The Office of Management and Budget has called upon Federal agencies to
           improve their acquisition practices and guard against inefficiency and waste in
           order to protect the billions of taxpayer dollars spent on acquisitions each year. In
           fiscal year 2010, the Department of Transportation (DOT) spent $5.8 billion on
           contracts for goods and services. The Office of the Secretary of Transportation
           (OST) is tasked with ensuring that all of DOT's Operating Administrations use
           these funds effectively and safeguard them against fraud and abuse. Strong
           leadership and acquisition practices within OST's Office of the Senior
           Procurement Executive (OSPE)—which establishes DOT's acquisition policies
           and procedures—are critical to meet these goals.

           This report presents the results of our audit to assess the effectiveness of OST's
           acquisition function focusing on its (1) organizational structure and leadership
           (2) policies and processes and (3) management controls over acquisition data. We
           conducted our audit between October 2009 and March 2011 in accordance with
           government auditing standards prescribed by the Comptroller General of the
           United States. Exhibit A details the scope and methodology we used in conducting
           this review.
                                                                                 2


RESULTS IN BRIEF
OST's current acquisition organizational structure does not effectively support the
DOT's acquisition function. In contrast to the intent of the Service Acquisition
Reform Act of 2003, 1 OST's acquisition structure creates an additional layer of
management and review that restricts the flow of information and diminishes the
Senior Procurement Executive's (SPE) ability to effectively perform acquisitions
in support of DOT's missions. These structural problems are further complicated
by long-standing vacancies in leadership and staff positions within OSPE that
prevented the office from fulfilling key procurement duties. For example, OSPE
operated for approximately 10 months without a permanent SPE, leaving OST
without a principal to implement procurement policies, regulations, and standards
for Department-wide use and to account for the DOT's procurement system. These
weaknesses not only affect the success of OST's acquisition function but also
impact acquisitions for all of DOT's Operating Administrations (OA).

OSPE's written policies and procedures do not promote effective acquisition
management. Specifically, OSPE lacks a comprehensive set of standard operating
procedures to facilitate consistent compliance with Federal and departmental
acquisition requirements. While OST is responsible for maintaining the
Transportation Acquisition Regulation (TAR) and Transportation Acquisition
Manual (TAM), long-standing staff shortages at OSPE have resulted in TAR and
TAM policies remaining out-of-date since 2005 and 2006, respectively, even
though OSPE was aware of the required updates and changes. Weaknesses in
OSPE's policies and procedures hinder OST's ability to promote consistent
implementation of acquisitions Department-wide.

OST also lacks the management controls needed to ensure its acquisition data are
accurate, complete, and timely. In fiscal years 2008 and 2009, roughly one-third of
OST's data in the Federal Procurement Data System-Next Generation
(FPDS-NG)—the Government-wide procurement information system—were
inaccurate. 2 OST acquisition data are also vulnerable to compromise. We found
that 55 of 90 former OST employees (61 percent) had full access to PRISM—
DOT's system for managing and reporting procurement data. Similarly, 29 of 53
former OST employees (55 percent) had full access to FPDS-NG. Without
appropriate controls, OST risks compromising the integrity of its acquisition data
and cannot be assured of this data's usefulness in making informed management
decisions at either the strategic or transactional level. Moreover, it cannot
sufficiently protect Department funds from fraud, waste, or abuse. In response to
1
    Public Law 108-136, Section 1421(c).
2
    Data derived from U.S. DOT FPDS-NG Data Quality Reports for 2008 and 2009.
                                                                                             3


our audit, OST deactivated all of its former employees' access in both systems.
However, OST still needs to establish and implement the appropriate controls to
prevent future occurrences of unauthorized access to the acquisition systems.

We are making a series of recommendations to address the weaknesses we
identified in OST's acquisition function.

BACKGROUND
OSPE is part of OST's Office of the Assistant Secretary for Administration.
OSPE's mission includes ensuring that acquisition and financial assistance efforts
strategically contribute to the achievement of DOT's mission. Two of OSPE's five
divisions focus specifically on procurement (see Figure 1):

Figure 1. Office of the Senior Procurement Executive


                                       OSPE
                                       (SPE)
                                      (M-60)


         Financial    Acquisition                     IT       Commercial
         Assistance     Policy      Acquisition   Management    Services
         Policy and      and         Services        and       Management
         Oversight    Oversight                    Reporting



Source: OSPE Organizational Chart. Bold type signifies key acquisition positions. Red indicates
leadership position vacant or filled temporarily during the time of our review—October 2009
through August 2010.

   • The Acquisition Policy and Oversight Division establishes and maintains
     Department-wide policies, procedures, and regulations for all phases of
     DOT's contracting, including guidance for implementing statutes,
     regulations, policies, and procedures. The division also develops, assesses,
     and facilitates contracting improvement programs and establishes and
     maintains Department-wide procurement data systems to ensure acquisition
     and financial assistance system integrity, data quality, accuracy, and
     timeliness of reporting.

   • The Acquisition Services Division provides a full range of acquisition
     services to OST, from acquisition planning to contract closeout. As a
     headquarters service organization, the division is also responsible for the
                                                                                                                 4


         award and administration of business arrangements, including contracts and
         grants.

To encourage efficient use of taxpayer dollars in procurement, the Service
Acquisition Reform Act of 2003 (SARA) required DOT and other Federal
agencies to designate Chief Acquisition Officers (CAO) and Senior Procurement
Executives (SPE) to manage their acquisitions and procurement systems. 3 CAOs
are required to monitor the performance of acquisition activities and acquisition
programs, evaluate the performance of those programs based on applicable
performance measurements, and advise the agency regarding the appropriate
business strategy to achieve the mission of the agency.
In May 2008, OMB issued guidelines to Federal agencies for conducting internal
control reviews of acquisition functions. 4 The guidelines provide a standard
approach for conducting a top-down assessment of the strengths and weaknesses
of a Federal agency's acquisition function. All agencies identified in the Chief
Financial Officers (CFO) Act, 5 including DOT, are required to use the framework,
beginning in fiscal year 2009. The guidelines also require agencies to integrate
these assessments with their existing internal control processes and practices for
acquisitions. The guidelines consist of four interrelated cornerstones, representing
broad areas that have the greatest impact on efficiency and effectiveness, and
laying the foundation for assessing and evaluating an agency's acquisition
function: organizational alignment and leadership, policies and processes,
information management and stewardship, and human capital. See Exhibit C for
details on the cornerstones' critical elements.

OST'S PROCUREMENT FUNCTION IS NOT STRUCTURED TO
PROMOTE ACHIEVEMENT OF DOT'S MISSIONS
OST's procurement structure inhibits its ability to play a strategic role in
accomplishing departmental missions and provide clear and direct communication
to DOT's leaders. Long-standing vacancies in critical leadership positions and
OSPE staff have contributed to weaknesses in the acquisition function, including
hindering OSPE's ability to adequately fulfill its role as DOT's procurement leader
and provide contract oversight Department-wide. The Department's Strategic

3
  The SPE position was originally required by amendments to the Office of Federal Procurement Policy Act, Public
  Law 98-191, dated December 1, 1983.
4
  OMB Memorandum Conducting Acquisition Assessments under OMB Circular A-123, May 21, 2008.
5
  The Chief Financial Officers (CFO) Act of 1990. Public Law 101-576, lays a foundation for comprehensive reform of
   Federal financial management and charges OMB’s Deputy Director for Management with overseeing many of the
   Federal Government’s general management functions. These functions include information policy, procurement
   policy, property management, and productivity improvement.
                                                                                                 5


Acquisition Council (SAC) run by OST is underutilized, and OSPE's strategic plan
fails to link its activities to DOT's goals and missions. These weaknesses not only
limit OST's ability to fulfill its procurement objectives effectively but could also
negatively impact OAs.


OST's Procurement Structure Does Not Operate Effectively
OST's procurement structure creates an ineffective flow of information and
authority in operations. Specifically, the procurement structure does not promote
open communication, or position acquisitions to play a strategic role in the
Department. Under SARA, each Federal agency with a CFO is required to appoint
a non-career official as Chief Acquisition Officer (CAO), with acquisition
management as the primary duty. CAOs are required to monitor the performance
of acquisition activities and programs, evaluate the performance of those
programs, and advise agency officials regarding the appropriate business strategy
to achieve the agency's mission. The CAO was created as a separate position from
the SPE, although the positions can be combined. If separate, SARA requires that
the SPE report directly to the CAO without intervening authority.

To implement SARA requirements, the Secretary designated the Deputy Secretary
to serve as the Department's CAO, a position separate from the SPE. However,
DOT's current procurement authority flows from the CAO through the Deputy
CAO to the SPE (see Figure 2), creating an organizational stovepipe. According to
the SARA's legislative history, designating a CAO was intended to eliminate such
stovepipes and allow the CAO to serve as a focal point for acquisition in
day-to-day operations, as well as in the agency-wide strategic planning and
performance evaluation processes. 6 To perform CAO functions, the SPE should be
in an executive-level position, and empowered and positioned within the
organization to fulfill the functions established by SARA, which OST's current
structure does not promote. Although originally envisioned by OST as an interim
solution in 2004 for SARA implementation, this structure is set to remain in effect
until changed in writing by the Secretary.




6
    House Report No. 108-117 (1); House Committee on Government Reform, May 19, 2003, page 23.
                                                                                                                    6




Figure 2. DOT's Procurement Authority


                                                Secretary



                                        Deputy Secretary (Chief
                                       Acquisition Officer (CAO))


                                       Assistant Secretary for
                                     Administration (Deputy CAO)


                                    Senior Procurement Executive
                                               (SPE)

Source: OST

Because the SPE reports to the Deputy CAO instead of to the CAO, as required by
SARA, the SPE is not included in top-level management discussions and
meetings, limiting the SPE's ability to promote acquisitions as a strategic
contributor to DOT's success. Additionally, this procurement management
structure does not elevate the acquisition authority to a level that allows
acquisitions to play a strategic role in supporting DOT's missions. OMB has
identified this issue as a critical factor for an acquisition function's success. In the
current OST structure, neither the CAO's nor the Deputy CAO's duties focus
primarily on acquisitions. Unlike other Federal agencies, DOT's SPE does not
report directly to the CAO, and does not have sufficient authority to promote
strategic acquisition decisions and policy across the Department.

Furthermore, the placement of and duties assigned to the SPE in OST's structure
prevents sufficient separation of duties because the SPE could be tasked with
conducting direct contract work that the SPE is responsible for independently
overseeing. For example, the previous SPE was tasked with closing out 7 OST
contracts. However, the SPE is responsible for independently managing and
overseeing the contract closeout process Department-wide and it is inappropriate
for this individual to be closing out the contracts that he or she oversees. The

7
    The contract administration office is responsible for initiating administrative closeout of a contract as soon as
    practical after receiving evidence of physical completion. The closeout process is to ensure that the contractor
    performed in accordance with the terms, conditions, and specifications of the contract, and that all contractual
    actions have been completed, reviewing for excess funds that should be de-obligated, and preparing statements that
    authorize the closing of contract files.
                                                                                                                    7


possibility of insufficient separation of duties will remain as long as the current
authority structure remains in place.

Long-Standing Vacancies in Key Leadership and Staff Positions
Contribute to Weaknesses in OSPE's Acquisition Function
Vacant positions at OST created critical gaps in leadership and contributed to the
acquisition function's weaknesses. We identified four important procurement
leadership positions that OST had not permanently filled—the Assistant Secretary
for Administration, the Head of Contracting Activity (HCA), the SPE, and the
Chief of Contracting Office (COCO). 8 According to OMB's guidelines on
conducting acquisition assessments, leadership is critical for establishing direction
and vision, and if necessary, changing the culture of an organization. Three prior
external assessments of OSPE's acquisition function came to similar conclusions
and found that a lack of leadership contributed significantly to other weaknesses in
the acquisition function. 9 Congress has recognized the critical role leaders play in
providing direction and vision, and required certain agencies, including DOT, to
designate SPEs to take responsibility for the management of their procurement
systems.

Leadership and staff vacancies have hindered the effectiveness of OSPE's
acquisition function. OST's failure to designate a permanent SPE, and other
acquisition positions, has hindered the proper execution of critical procurement
duties. For example, when the former SPE left DOT in December 2009, OST
informally assigned the SPE's responsibilities to two non-procurement managers,
who were not in a position to adequately manage these responsibilities. In one
instance, we found that a non-procurement manager issued an unlimited contract
warrant to an unqualified contracting officer (CO), 10 and thus incorrectly gave the
individual authority to award contracts of unlimited dollar amounts. All 8 OAs
whose SAC members responded to our May 2010 survey—sent to SAC members
from the 10 OAs that signed the SAC charter—reported an absence of OST
acquisition oversight, leadership, and guidance. They also reported that this
problem had become more significant since the SPE position had been vacant.

As a result of our review, OST took corrective actions in July and August 2010 by
designating staff in an acting capacity with authority to carry out certain duties

8
  OST filled the HCA/SPE positions in October 2010.
9
   OSPE had three contractors perform assessments of its acquisition function—Martin Contract Management (2005),
    Bearing Point (2008), and NetAmerica (2009).
10
    Only a warranted CO can obligate the Government. The warrant sets the level of authority that the CO cannot
   exceed. There are specific education, training, and experience requirements tied to the different levels of warrant
   authority.
                                                                                   8


associated with three of the vacant leadership positions. However, without
permanent leadership, OSPE is missing an element of organizational support
needed to effectively execute the acquisition function and promote acquisitions as
a strategic business resource in accomplishing DOT's missions.

Three other long-standing OSPE staff vacancies have also hindered OST's ability
to efficiently carry out its procurement responsibilities. (OSPE has filled two of
these vacancies.) For example:

   • A team lead position—with unlimited warrant authority—became vacant in
     December 2009. OST has not yet filled the position.
   • The Associate Director of Policy and Oversight position, responsible for
     making changes to the TAR and TAM, became vacant in May 2010. OST
     filled the vacancy in December 2010.
   • The Associate Director for Commercial Services Management, who is
     responsible for the OSPE strategic plan, left in May 2010. OST filled the
     vacancy in December 2010.
From October 2009 through July 2010, OSPE's attrition was almost 30 percentage
points higher than the average attrition rate of the other five offices making up the
Office of the Assistant Secretary for Administration for the same period (see
Figure 3). Specifically, due to attrition during this period, 7 out of 21 OSPE
positions were vacant.
                                                                                                                  9


Figure 3. Attrition Rates of Offices Within the Office of the Assistant
Secretary for Administration - October 2009 through July 2010


      35%

      30%

      25%

      20%

      15%

      10%

        5%

        0%
                    M-10            M-20            M-40            M-60          M-70             M-90
               Human Resources     Hearings        Security         OSPE         Finance      Property & Assets
                (8 out of 62)    (0 out of 8)   (1 out of 28)   (7 out of 21) (2 out of 61)    (2 out of 65)
                                                (Attrited out of Active Employees)

Source: OIG analysis

Seven of the eight OAs' SAC members that responded to our May 2010 survey (88
percent) attributed the OSPE vacancies and staff turnovers to the decreases in
acquisition leadership and communication from OST. They also stated that
because of vacancies and turnover, which date back to 2005, they do not know
whom in OSPE to contact regarding acquisition issues and concerns. The members
also expressed concerns about the lack of OSPE staff with a working knowledge
of each OA's acquisition situation.

In response to our review, OST recognized the need to stabilize and rebuild its
SPE function. On October 24, 2010, OST officially designated an SPE for the
Department, who is also designated as the HCA. 11 According to OST, the SPE is
engaged in rebuilding OSPE's leadership role within the Department and has taken
steps to improve staff morale and stabilize the workforce. Additionally, a recent
review of OSPE's attrition from September 2010 through April 2011 shows its
attrition rate has dropped to 10 percent.




11
     OST previously designated this official as the Acting SPE on August 13, 2010.
                                                                                 10


The Strategic Acquisition Council Has Not Provided Acquisition
Leadership to the Department
The SAC has not been used as the Department's intended forum for procurement
leaders. Chartered in January 2009, the SAC's mission is to provide a forum for
senior DOT acquisition leaders in each OA to address issues affecting DOT's
procurement community, facilitate a consistent focus on acquisition improvement
throughout the Department, and ensure that acquisitions strategically contribute to
DOT's mission. The SPE serves as SAC's chairperson and acts as liaison between
the SAC, senior DOT officials, and other external Federal agencies on
Department-wide acquisition issues. Without an SPE to chair it, the SAC became
inactive for over a year leaving the Department's senior acquisition leaders without
a way to address acquisition issues.

SAC members from seven of the eight OAs that responded to our May 2010
survey stated that they believe the SAC could be an effective tool for promoting a
successful and united acquisition process for the Department. They also stated,
however, that the SAC is underutilized and has not had an opportunity to fully
develop. Further, members of all eight OAs who responded to the survey
uniformly acknowledged that they do not receive the leadership and guidance on
acquisition they need from OST. Specifically, the respondents noted that

   • OST does not provide adequate Department-wide acquisition leadership,
     such as actively supporting OAs in effectively carry out their acquisition
     missions;
   • the quality of OST's support and involvement in the OAs' acquisition
     functions has diminished; and
   • there is little focus on the acquisition function in general at the Department
     level.
Since being appointed acting SPE in August 2010, the now permanent SPE has
worked towards revitalizing the SAC by reestablishing its monthly meetings—the
first of which occurred in August 2010.

OSPE's Strategic Plan Does Not Link Its Goals to DOT's Strategic
Plan or Address the Identified Acquisition Function Deficiencies
OSPE's strategic plan is missing key elements necessary for an effective
organizational vision. OSPE issued its first strategic plan in March 2010 covering
fiscal years 2010 through 2013. In the plan, OSPE acknowledges its responsibility
for the Department's acquisitions. However, the plan does not clearly align the
                                                                                                                  11


organization's purpose or establish realistic goals and objectives consistent with
DOT's overall mission.

The plan commits to providing useful acquisition processes and products to OST
and OAs, but the plan has deficiencies in several key areas. First, it does not tie
OSPE's activities to the goals and mission outlined in the Department-wide
strategic plan, and fails to place OSPE's work in a long-term strategic context.
Second, OSPE's strategic plan does not address deficiencies in the elements that,
according to OMB, must be addressed for successful acquisition functions—
contract oversight, clearly defined roles and responsibilities, established policies
and processes, and the prevention of gaps in leadership. 12 Finally, OSPE has not
developed performance measures and metrics to track its progress in meeting the
plan's goals.

OSPE LACKS ADEQUATE POLICIES AND PROCEDURES TO
EFFECTIVELY ADMINISTER ITS ACQUISITION FUNCTIONS AND
WORKFORCE
OSPE lacks comprehensive policies and procedures for managing and performing
its acquisition tasks. Additionally, OSPE does not regularly update DOT's
acquisition guidance to reflect changes in Federal policy, affecting the entire
Department's ability to rely on this guidance. Furthermore, contract and oversight
files do not include required documents or complete histories of the contracts.
Finally, OST does not maintain accurate records on its acquisition workforce in
the Acquisition Career Management Information System (ACMIS), the
Government-wide system for acquisition personnel, as required by both Federal
and Department policies.

OSPE Does Not Have Adequate Standard Operating Procedures for
Many of Its Acquisition Tasks and Processes
OSPE does not have a comprehensive set of standard operating procedures (SOP)
for daily acquisition tasks and processes, a weakness previously identified in
external assessments dating back to 2005. 13 In response to our audit, OSPE has
begun to develop written procedures for various acquisition processes and has
identified 35 needed SOPs. However, these SOPs do not address all aspects of an
effective acquisition function. For example, OSPE has not identified the need for
an SOP for developing acquisition plans—a critical step for ensuring DOT

12
     OMB Memorandum Conducting Acquisition Assessments under OMB Circular A-123, May 21, 2008.
13
     Martin Contract Management performed an assessment of OSPE's acquisition function in 2005 identifying a lack of
     written procedures, including a Standard Operations and Procedures manual, for the Acquisition Services Division.
                                                                                                                    12


efficiently and effectively meets its contracting needs. Furthermore, we reviewed
three completed SOPs—contract administration, closeout procedures, and CO
warrants—and found two of the three lacked detailed steps, guidance, and
delineation of roles and responsibilities. A more cursory review of seven other
SOPs revealed that several were little more than existing Federal or Department
policies with no guidance or clear roles and responsibilities.

Additionally, OSPE staff we interviewed did not know which SOPs had been
finalized or how to locate them. OSPE had not established an effective method for
communicating new SOPs to staff and had not posted any SOPs to its intranet site.
After we requested copies of existing SOPs, OST began posting them to its
intranet. Currently, however, OSPE has posted only ten.


OSPE Does Not Adequately Maintain DOT's Acquisition Policy
OSPE has not updated the TAR—which establishes uniform acquisition policies
and procedures for DOT—since 2005, or the TAM—which establishes uniform
internal operating acquisition procedures—since 2006. Both clearly state that they
implement and supplement the Federal Acquisition Regulation (FAR)—the
Federal Government's principal acquisition policy. 14 However, over 44 Federal
Acquisition Circulars (FAC), which identify changes to the FAR, have been
released since 2005. Each of these FACs could result in one or more changes to
the TAR or TAM. For example, the TAM does not reflect a new FAR requirement
that COs be responsible for the accuracy of contract award data prior to reporting
it into FPDS-NG. 15

In 2009, OSPE identified a backlog of changes for TAR and TAM. However,
according to OSPE, staffing shortages prevented OSPE from implementing any
changes during fiscal year 2010. OSPE staff also informed us that since a previous
policy team lead left OST in fiscal year 2005, OSPE has focused little attention on
keeping TAR and TAM updated.

Maintaining of current requirements in TAR and TAM is critical to OST and OA
acquisition functions. All eight OAs that responded to our May 2010 survey of the
SAC members expressed concerns regarding a lack of acquisition guidance
coming from OST. Specifically, six OAs mentioned that TAR and TAM were out-
of-date and therefore unreliable. They also stated that OST does not provide new
or updated acquisition guidance or policy in a timely manner, and that policy lacks

14
   The FAR establishes policies and procedures to ensure that agencies conduct acquisitions with fairness and integrity,
   minimize administrative operating costs, receive best quality products and services, and fulfill policy objectives.
15
   FAR Part 4.604(b).
                                                                                                                    13


implementation guidelines. As a result, OAs must rely on external resources for
regulations, and interpret changes on their own, thus exposing DOT to the risk of
error and inconsistent acquisition practices.

Since being appointed, the current SPE has been working to ensure that
acquisition guidance is up-to-date throughout the Department, and that effective
communication mechanisms for DOT's procurement community are in place.
Additionally, the SPE has directed a review of outstanding updates to the TAR and
TAM.

OST Does Not Maintain Complete Contract Files or Complete Records
of Contract Oversight
OST does not sufficiently maintain contract files, as required by FAR, 16 to make
informed decisions at each step of the acquisition process and to support actions
taken. We reviewed a random sample of seven contract files from fiscal years
2007, 2008, and 2009. These files lacked documents required by both Federal and
Department policy, including acquisition plans, independent government cost
estimates, and legal reviews. Furthermore, none of the six contract files from 2008
and 2009 included the contract file document checklist required since 2008 by
OST policy. 17 The previous Associate Director of Acquisitions Services did not
use the checklist, and the former acting Associate Director was unaware of it.
OSPE operates without an SOP on contract file maintenance, indicating a lack of
standards that ensure consistency and compliance with regulations. For example,
COs use their discretion on when to obtain legal reviews or develop acquisition
plans since no existing SOP addresses either of these issues. In March 2010, OSPE
finalized a contract administration SOP. However, it merely copies verbatim FAR
policy; provides no explanation for implementing the policy; and sets no
processes, procedures, or guidance.

We also found the corresponding seven Contracting Officer Technical
Representative's (COTR) files to be incomplete. Specifically, they did not contain
documents recommended by DOT policy on the COTR program, 18 including
copies of correspondence with the contractor and contractor performance results.
Furthermore, the COTR files provided little or no evidence of contract monitoring
or oversight such as monitoring plans and documentation of surveillance results.



16
   FAR 4.801(b) requires the head of each office performing contracting to establish files containing the records of all
   contractual actions sufficient enough to constitute a complete history of the transactions.
17
   DOT Acquisition Policy Letter APL-2008-2, March 5, 2008.
18
   DOT COTR Program, September 2008.
                                                                                                                        14


Documenting of contract monitoring and surveillance is key to effective contract
administration. 19

OSPE Does Not Maintain Required Information on Its Acquisition
Workforce
OSPE staff do not maintain ACMIS records as required by OMB and DOT
policies, 20 and OST management controls do not exist to ensure compliance with
these policies. Specifically, OSPE's ACMIS records are not current, contain
inaccurate information, and do not support the level of Federal Acquisition
Certification in Contracting (FAC-C) certification and/or warrant authority of
several staff.21 Furthermore, supervisors do not review staff ACMIS information
to ensure its accuracy. For example:

     • One CO with an unlimited warrant issued in 2004 has never entered
       information into ACMIS. OMB Policy Letter 05-01 22 requires all COs with
       authority above the micro-purchase threshold 23 to enter current and
       complete information in the system by October 1, 2006.
     • The ACMIS report for one supervisory CO, who previously was Acting
       Associate Director of Acquisition Services, shows qualifications for a FAC-
       C level II certification and a limited level II warrant authority. However,
       the CO earned a level III certification in June 2008, and was issued an
       unlimited warrant in June 2009. ACMIS records, last updated June 2008,
       do not reflect these changes in warrant and certification levels, and do not
       document the additional training completed to support the level III
       certification.
     • The ACMIS report for an Integrated Systems Management and Reporting
       Division employee with an unlimited warrant did not support completion of
       education or training requirements. The report indicated that the employee
       never completed mandatory FAC-C level II and III training. ACMIS
       records also indicated the termination of a previous administrative warrant
       the day before the issuance of the unlimited warrant in January 2010, when

19
   Office of Federal Procurement Policy, A Guide to Best Practices for Contract Administration, October 1994.
20
   OMB Policy Letter 05-01, Developing and Managing the Acquisition Workforce, April 15, 2005; DOT's Acquisition
   Career Development Guide, November 2006.
21
   To receive a CO warrant, COs must obtain Federal Acquisition Certification (FAC) at a level that supports the level
   of the CO warrant. There are three FAC-C certifications/CO warrant levels, each of which has specific training,
   education, and experience requirements that must be met to receive the FAC certification. Level I
   certification/warrant authority is up to $100,000; level II certification/warrant authority is up to the $6.5 million; and
   level III certification/warrant authority is unlimited dollar amount. Requirements are cumulative, meaning one must
   achieve the previous level of FAC certification requirements before applying for the next level.
22
   OMB Policy Letter 05-01, Developing and Managing the Acquisition Workforce, April 15, 2005.
23
   The current micro-purchase threshold is $3,000.
                                                                                                          15


         in fact, OSPE management did not terminate the administrative warrant, as
         required by Department policy, 24 until August 13, 2010.
OST does not have policies and procedures that ensure proper use of ACMIS.
OSPE management does not emphasize compliance with requirements for keeping
information in ACMIS current and complete. Because both the Acquisition Career
Manager (ACM) position 25 and the Associate Director of Acquisition Services
positions are vacant, no staff person fulfills the duty of reviewing ACMIS
information.

A lack of current and accurate information in ACMIS inhibits OST from making
informed budgeting, staffing, training, and employment development decisions. It
also prevents DOT from complying with the Federal requirement for maintaining
training records on the acquisition workforce, and tracking Federal certification
requirements and achievement levels. 26 Furthermore, because the acquisition
workforce information in ACMIS will roll directly into the new system planned to
replace ACMIS in 2011, any inaccuracies will compromise the integrity of the
new system's data even before it is deployed.


OST LACKS BASIC MANAGEMENT CONTROLS TO ENSURE
ACCURATE, COMPLETE, AND TIMELY PROCUREMENT DATA

OST does not have sufficient management controls to report accurate, complete,
and timely procurement data as required by OMB regulations. Weaknesses include
high rates of inaccuracy in its procurement database, insufficient procedures for
promptly removing former employees' access to databases, an inaccurate inventory
of its active contracts, and inadequate contingency plan for DOT's internal
procurement database, PRISM, in the event of a systemwide emergency. These
weaknesses affect the integrity of the data used for decision making by the
Department as well as Congress and other Federal agencies.

Data that OST Reports to the FPDS-NG Has a High Inaccuracy Rate
OST's FPDS-NG 27 data has a high rate of inaccuracy, even though OMB requires
agencies to certify annually the accuracy and completeness of their data

24
   DOT's Acquisition Career Development Guide, November 2006.
25
   ACM is an appointed position responsible for managing DOT's acquisition workforce and ensuring accurate and
   consistent Department-wide data in ACMIS. The position has been vacant since May 2010.
26
   OMB Policy Letter 05-01, Developing and Managing the Acquisition Workforce, April 15, 2005.
27
   The Federal Procurement Data System-Next Generation (FPDS-NG) is the database that stores procurement data
   from all Federal Departments.
                                                                                                                 16


transmissions to FPDS-NG. 28 OST had accuracy rates of 27 percent and 34
percent for fiscal years 2008 and 2009, respectively. 29 In April 2010, OMB
emphasized the importance of agencies' reporting accurate data to FPDS-NG to
improve the timeliness, completeness, and accuracy of Federal spending
information. It set a goal that 100 percent of USASpending.gov's data—which
comes from FPDS-NG—be reported on time, completely, and accurately by the
end of fiscal year 2011. 30

The high rate of inaccuracy in OST's procurement data is due primarily to a lack
of internal controls over the data's entry into PRISM. According to the
Department’s OMB A-123 Acquisition Assessment Report, approximately 80
percent of OST's procurement data feeds directly into FPDS-NG. OST's contract
staff must enter the additional 20 percent into PRISM manually, and have no
process for reviews of the entries for errors, thus increasing the risk of
inaccuracies. According to OST, it should reconcile its PRISM and FPDS-NG data
on a quarterly basis and correct any identified discrepancies; however, it lacks a
process to ensure that corrections are made.

OSPE management acknowledged that the staff member temporarily assigned to
oversee FPDS-NG administration—DOT's FPDS-NG Administrator left OST in
August 2010—does not have the knowledge required to review and analyze data
reported throughout the Department for accuracy and to ensure regular reporting.
This deficiency further compromises the quality of DOT's verification of its
FPDS-NG data.




28
   OMB Memorandum Federal Procurement Data Verification and Validation, March 9, 2007.
29
   U.S. DOT Memorandum from Cassandra Wells, Director of Acquisition Oversight, to Carmencita Jones, Chief of
   Contracting Office, "FPDS-NG Data Quality Audit Summary Report", August 28, 2008; U.S. DOT Memorandum
   from Cassandra Wells, Associate Director of OSPE, to Carmencita Jones, Director of Acquisition Services, "FPDS-
   NG Data Quality Verification and Validation Report", June 29, 2009.
30
   USAspending.gov will enable compliance with the Transparency Act of 2006 and allow for future growth of
   reporting on Federal spending. Launched in January 2008, it currently contains information on grants and contracts
   at the prime award level.
                                                                                    17


Untimely Removal of Former Employees' Access to Procurement
Databases Creates Risks for Data Integrity

Many OST employees retained access to DOT's procurement databases after their
employment with OST ended. Specifically, in March 2010, 55 out of 90 former
employees, or 61 percent, retained access to PRISM, while 29 out of 53 former
employees, or 55 percent, retained access to FPDS-NG. OMB requires agencies to
apply internal controls over data entry, transactions processing, and reporting to
protect resources from waste, loss, and misuse. Internal control standards also state
that access to resources and records should be limited to authorized individuals,
and that management should assign and maintain accountability for their custody.
In response to our audit, OST deactivated all former employees' access in both
systems. However, OST does not have a standard process in place to ensure that
each employee's access to DOT's procurement systems is deactivated upon
termination of employment. The absence of such a procedure also potentially
jeopardizes the integrity of the Department's acquisition data.

OST Cannot Accurately Account for Its Active Contracts
OSPE cannot accurately account for all of OST's active contracts. Government
internal control standards state that a good internal control includes periodic
inventories of assets. 31 Without a complete and accurate record of active contracts,
OSPE cannot ensure proper contract management and oversight. Government
control standards also call for periodic reconciliation of data records with contract
files to help reduce the risk of error, fraud, misuse, or unauthorized alterations.
OSPE officials acknowledged the need to inventory its contract files, but stated
that it has no staff available to complete the inventory. OSPE's lack of a complete
and accurate record prevents reconciliations of the data reported to the
procurement systems with its contract files.




31
     GAO Standards for Internal Control in the Federal Government, November 1999.
                                                                                                                18


OST's Contingency Plan for PRISM Does Not Adequately Mitigate
Risk to the System

OST's contingency plan 32 for PRISM lacks important elements required by
Federal contingency planning guidelines, 33 including resource requirements,
training requirements and exercises, testing schedules, and a maintenance
schedule. All Federal organizations must develop contingency plans for each
information system that meets critical operations needs in the event of a system
disruption. 34 By not including key elements in its contingency plan for PRISM,
OST reduces the plan's effectiveness, and cannot ensure that all personnel will
fully understand planning requirements.

Furthermore, OST cannot provide evidence to demonstrate that it annually reviews
and tests its contingency plan for PRISM, as required, 35 to maintain the plan's
effectiveness and operability. Annual testing is critical to a contingency plan's
viability because it identifies and addresses possible deficiencies through the
validity testing of at least one component and plan operability. Because
information systems undergo frequent changes and system risks may vary over
time, contingency plan testing and review must be ongoing. OST's 2010 PRISM
Contingency Plan shows that since the plan's inception in 2004, updates only
occurred in 2006 and 2010.

CONCLUSION
DOT is responsible for billions of dollars of acquisitions each year. OST
represents the core of the Department's acquisition functions. Significant
weaknesses in its acquisition function, however, limit OST's ability to carry out its
responsibilities to support DOT's mission. OST has recognized that it needs to
make changes—in both its organization and culture—and has begun to take action.
However, until OST fully commits to reforming its own acquisitions, it will be
challenged to provide clear direction and vision to acquisitions Department-wide,
putting nearly $6 billion worth of annual contracted goods and services at risk of
fraud, waste, and abuse.


32
   An information system contingency planning represents a broad scope of activities designed to sustain and recover
   critical information technology services following an emergency.
33
   National Institute of Standards and Technology (NIST) Special Publication 800-34: Contingency Planning Guide for
   Federal Information Systems, June 2002, revised May 2010.
34
   The Federal Information Security Management Act (FISMA) of 2002 mandates federal organizations Contingency
   plans. The NIST develops and issues standards, guidelines, and other publications to assist federal agencies in
   implementing the FISMA.
35
   NIST Special Publication 800-34: Contingency Planning Guide for Federal Information Systems, June 2002, revised
   May 2010.
                                                                              19


RECOMMENDATIONS
We recommend that the Deputy Secretary take the following action:

1. Develop a permanent procurement structure and corresponding organizational
   roles and responsibilities for the Chief Acquisition Officer and the Senior
   Procurement Executive that positions and empowers them to effectively carry
   out their procurement duties.
We recommend that the Senior Procurement Executive take the following action:

2. Permanently fill the Chief of Contracting Office position and the Federal
   Procurement Data System-Next Generation Administrator position.
3. Create and implement a staffing plan that addresses OSPE's current and
   anticipated future workload needs.
4. Develop measures to track achievement of OSPE's strategic plan goals.
5. Finalize and set individual employee performance standards that align with
   OSPE's strategic plan.
6. Develop comprehensive SOPs for its acquisition processes and tasks that
   include specific steps, expected timeframes, and clearly assigned roles and
   responsibilities.
7. Implement a process delineating staff roles and responsibilities to ensure TAR
   and TAM remain up-to-date.
8. Issue guidance that re-emphasizes the requirement that COs and contract
   specialists use DOT's standard contract checklist to maintain accurate and
   complete contract records.
9. Require the Acquisition Career Manager and supervisors to review and
   approve ACMIS information for all employees to ensure its accuracy.
10. Ensure that FPDS-NG data quality reviews are conducted and documented.
11. Create and implement a procedure to ensure that employees leaving the
    Agency have their access to procurement systems terminated as part of the
    checkout process.
12. Establish and implement regular reviews of the procurement database user
    access lists to ensure that current employees' access rights are properly
    maintained and modified, as needed.
13. Develop and maintain a comprehensive list of OSPE's contracts.
                                                                              20


14. Create and implement a process for periodically reconciling a comprehensive
    list of OSPE's contracts to its contract files and procurement databases.
15. Update and maintain the PRISM Contingency Plan to comply with Federal
    regulations.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with officials from OST on December 15,
2010, and provided a draft of this report to OST on March 31, 2011. We received
OST's response on May 2, 2011, which is included in its entirety in the Appendix
of this report. OST concurred with recommendations 10 and 11, has already
completed actions to address those recommendations, and we consider them
closed.

OST also concurred with all except 4 of our recommendations and provided
acceptable planned corrective actions and implementation dates. OST partially
concurred with recommendations 1, 4, 5, and 9 but provided alternate actions that
meet the intent of those recommendations. OST also provided implementation
dates. We consider all of these recommendations resolved pending completion of
the planned actions.

For the remaining recommendation, however, OST needs to provide further
information. Specifically, OST concurred with recommendation 7 (assigning
responsibility for TAR/TAM updates) but since the final milestone for these
actions is not until December 2013, we are requesting that OST provide us with
periodic updates on its progress.


ACTIONS REQUIRED
In accordance with the Department of Transportation 8000.1C, we are closing
recommendations 10 and 11. We are also requesting that OST inform us when it
has completed its remaining planned actions for the remaining recommendations
for which acceptable actions were proposed. We request that OST provide us with
additional information for recommendation 7.

We appreciate the courtesies and cooperation of the Office of the Senior
Procurement Executive's representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1427 or Tony
Wysocki, Program Director, at (202) 493-0223.
                                                         21


                                     #

cc:   Willie Smith, Senior Procurement Executive, M-60
      Martin Gertel, M-1
                                                                                 22




EXHIBIT A. SCOPE & METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

We conducted this audit between October 2009 and March 2011. Our audit
objective was to assess OST’s acquisition function and identify vulnerabilities that
could impact DOT’s ability to implement an effective and efficient approach
consistent with best practices, including the Office of Management and Budget
(OMB) Guidelines on conducting acquisition assessments under Circular A-123.
This effort is part of our risk-based oversight strategy to help DOT address
management challenges in its acquisition function. We focused our audit on an
assessment of OST's acquisition function to identify vulnerabilities that could
impact OST's ability to manage its own acquisitions and implement and promote
effective and efficient acquisition processes Department-wide.

To address our audit objective, we conducted a high-level review of OST's
acquisition function, focusing on three of the four cornerstones identified in OMB
guidelines on conducting acquisition assessments under OMB Circular A-123.
These four cornerstones are: (1) Organizational Alignment and Leadership; (2)
Policies and Procedures; (3) Acquisition Workforce; and (4) Information
Management Stewardship. We did not focus on the third cornerstone—Acquisition
Workforce—because we determined that the scope for this cornerstone was
extensive and should be covered in a separate audit to ensure that adequate time
and attention are devoted to the area.

We reviewed the Federal Acquisition Regulation (FAR); Transportation
Acquisition Manual (TAM); DOT's Acquisition Career Development Program;
OMB's Policy Letter 05-01:          Developing and Managing the Acquisition
Workforce; the Service Acquisition Reform Act (SARA) of 2003; and other
applicable departmental and Federal regulations and guidance. We also consulted
with OIG's Office of Legal, Legislative, and External Affairs throughout the audit
to ensure proper interpretation of SARA and other policies.

We interviewed various Office of the Senior Procurement Executive (OSPE)
managers and staff to obtain an accurate understanding of the acquisition-related


Exhibit A. Scope & Methodology
                                                                                23


processes and practices, culture, and atmosphere. To assess the organizational
alignment and leadership we reviewed OST's organizational charts and authority
structures, obtained position descriptions for acquisition staff and management,
analyzed the OSPE's strategic plan, worked with our statistician to determine
OST's attrition rates, and interviewed members of the Strategic Acquisition
Council (SAC). To assess OST's policies and processes, we reviewed standard
operating procedures, reviewed employee certifications and qualifications—
including the Acquisition Career Management Information System records for all
OSPE employees in the system as of March 2010—and verified that all OSPE
Contracting Officer's qualifications met their warrant authority. To evaluate OST's
information management stewardship and data quality, we analyzed required
information system processes such as the Certification & Accreditation and
Verification & Validation, determined whether a contingency plan with annual
testing was in place, and whether OST had an accurate account of their active
contracts, and compared OST's roster of current employees to the list of active
users for OST's procurement databases as of March 2010.

We reviewed a random sample of 7 OST contracts totaling more than $271 million
from a universe of 3,068 unique contracts totaling $7.5 billion reported in PRISM
for fiscal years 2007 through 2009. We selected contracts with probability
proportional to size—in which size was equal to the award amount—thereby
giving contracts with larger award amounts a greater chance of being selected
while giving every dollar in the universe an equal chance. We used this sample to
perform a high-level review of the associated contract and Contracting Officer
Technical Representative files to determine whether those files contained
complete contract documentation in compliance with Federal and departmental
laws and regulations, and whether they demonstrated that OST was providing
adequate contract management and oversight. We also used this sample to
compare each contract file's information to the contract information contained in
PRISM and FPDS to check for consistency and accuracy.




Exhibit A. Scope & Methodology
                                                              24




EXHIBIT B. GLOSSARY OF ACRONYMS


ACM        Acquisition Career Manager
ACMIS      Acquisition Career Management Information System
CAO        Chief Acquisition Officer
CFO        Chief Financial Officer
CO         Contracting Officer
COCO       Chief of Contracting Office
COTR       Contracting Officer Technical Representative
FAC        Federal Acquisition Circular
FAC-C      Federal Acquisition Certification in Contracting
FAR        Federal Acquisition Regulation
FISMA      Federal Information Security Management Act
FPDS-NG    Federal Procurement Data System-Next Generation
GAO        Government Accountability Office
HCA        Head of Contracting Activity
NIST       National Institute of Standards & Technology
OMB        Office of Management and Budget
OSPE       Office of the Senior Procurement Executive
OST        Office of the Secretary
SAC        Strategic Acquisition Council
SARA       Service Acquisition Reform Act
SOP        Standard Operating Procedure
SPE        Senior Procurement Executive
TAM        Transportation Acquisition Manual
TAR        Transportation Acquisition Regulation




Exhibit B. Glossar y of Acron yms
                                                                                                25


EXHIBIT C. SUMMARY OF THE ACQUISITION CORNERSTONES
IN OMB CIRCULAR A-123 AND THEIR CRITICAL ELEMENTS


  Cornerstone                Critical Elements Defining Each Cornerstone

  Organizational             •   Assuring appropriate placement of the acquisition function;
  Alignment &                •   Organizing the acquisition function to operate strategically,
  Leadership                     aligning it with agency mission and needs;
                             •   Clearly defining and integrating roles and responsibilities;
                             •   Having commitment from a clear, strong, and ethical executive
                                 leadership;
                             •   Effective communication of missions, values, and expectations,
                                 providing a foundation for continuous improvement.
  Policies & Processes •         Partnering with internal organizations—acquisition function
                                 engages all stakeholders from various disciplines when planning;
                             •   Assessing internal requirements and the impact in external
                                 events when planning acquisition strategies;
                             •   Empowering cross-functional teams;
                             •   Managing and engaging suppliers to encourage competition and
                                 enhancing price analysis and contractor quality and performance;
                             •   Monitoring and providing oversight in order to achieve desired
                                 outcomes;
                             •   Enabling financial accountability by tracking and communicating
                                 financial information throughout the acquisition process for
                                 effective evaluation and assessment of the acquisition activity;
                             •   Promoting successful outcomes of major projects, using sound
                                 capital investment strategies, and employing knowledge-based
                                 acquisition approaches.
  Information                •   Tracking acquisition data accurately;
  Management &               •   Translating data into meaningful formats and analyzing that data;
  Stewardship                •   Ensuring effective general and application controls over all
                                 information systems;
                             •   Ensuring effective data stewardship to ensure data accurate,
                                 accessible, timely, and usable for acquisition decision-making and
                                 activity monitoring.
  Human Capital              •   Valuing and investing in the acquisition workforce;
                             •   Performing strategic human capital planning;
                             •   Acquiring, developing, and retaining talent;
                             •   Creating a results-oriented organizational culture that empowers
                                 employees and links performance to organizational goals.

Source: OMB Circular A-123




Exhibit C. Summar y of the Acquisition Cornerstones in OMB Circular
A- 123 and Their Cri tical Elements
                                                                26




EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                  Title

  Tony Wysocki                          Program Director

  Ann Wright                            Project Manager

  Jill Cottonaro                        Senior Analyst

  Meghann Noon                          Auditor

  Karen Sloan                           Communication Officer

  Susan Neill                           Writer/Editor

  Petra Swartzlander                    Senior Statistician

  William Savage                        Computer Specialist

  Sandra DeLost                         IT Specialist

  Amy J. Berks                          Senior Counsel

  Sandra DePaulis                       Senior Analyst

  Jacqueline Feldman                    Analyst




Exhibit D. Major Contributors to This Report
                                                                                               27




           APPENDIX. AGENCY COMMENTS


                  MEMORANDUM
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation

           ACTION: Management Response to OIG Draft Report,
           “Weaknesses in the Office of the Secretary’s
           Acquisition Function Limit Its Capacity to Support
SUBJECT:                                                               DATE:
           DOT’s Mission”




           Brodi L. Fontenot                                           REPLY

FROM:      Deputy Assistant Secretary                                  TO
           for Administration
                                                                        Attn. of:




TO:
           CALVIN L. SCOVEL
           Inspector General

           The Office of the Senior Procurement Executive (OSPE) has weathered a difficult
           period and is emerging as a stronger organization. During a period of unusual
           leadership instability and staff attrition, the office struggled to maintain essential
           functionality. During that period the office was understaffed making it vulnerable
           to lapses in certain functional areas.

           Significant Actions Completed and Underway

           Upon becoming Deputy Assistant Secretary for Administration, one of my first
           actions was to provide new perspective to fully assess the OSPE function. Based
           on this assessment and information provided by the Office of Inspector General
           relating to its ongoing review, we recognized the need for, and implemented sound


           Appendix. AG ENCY COMMENTS
                                                                                  28


and effective actions to stabilize and rebuild the OSPE function. We are now well
along that pathway.

First, we brought in strong new leadership at the top, hiring a Senior Procurement
Executive (SPE) with proven leadership skills and knowledge of both procurement
and the Department. Though on board for less than a year, the new SPE has
assessed the overall structure and staffing of OSPE and is well on the way to
revitalizing the Office. Key leadership positions in the organization are now filled
and we will continue filling staff positions to the full extent of resource
availability. Office policies and procedures have been reviewed with plans put in
place, and responsibilities assigned, to ensure these vital elements are up to date
and effective. The SPE revitalized the Strategic Acquisition Council, recognized
the importance of this organization, and is convening regular meetings to effect
strategic dialogue with the Department’s acquisition community.

OSPE took immediate action to remediate issues identified by OIG with regard to
system access and continues its work to better verify data input to PRISM and
FPDS-NG. The Associate Director of Integrated Systems Management and
Reporting position is among those recently filled, and that Division will be leading
efforts to improve systems integration and data quality.

The Department will reassess its structural compliance with the Service
Acquisition Reform Act of 2003 with regard to reporting relationships. While we
understand the issues relating to compliance with all aspects of the statute, it is
also important to recognize the unique challenges the Department faces in
fulfilling the organizational, political, and workload expectations of the law. As
we evaluate alternatives that will most clearly demonstrate fulfillment of the intent
of the Act, we want to be clear that that the SPE has currently and will continue to
have direct, timely access to the Chief Acquisition Officer for matters relating to
strategic acquisition issues or otherwise relevant to department wide procurement.


Leadership in Place and Communication Enhanced

The Senior Procurement Executive has achieved significant progress in the limited
time since coming on board. The following highlight some of the specific
accomplishments to date:

   • OSPE Leadership is in Place and Staff has Stabilized – Each of OSPE’s
     leadership positions have now been filled with permanent selections that
     will afford the office with the management and expertise it needs to move
     forward. Staffing overall is also improving and attrition has been reduced.
     During the period covered by the OIG review, 6 people left the office,


Appendix. AG ENCY COMMENTS
                                                                                  29


       accounting for the office experiencing an attrition rate in excess of thirty
       percent. During the time period from July of 2010 to present, only 2 people
       have left, slashing the attrition rate for the office to less than 10 percent.

   • Strategic Acquisition Counsel Revitalized – One of the SPE’s first
     actions on August 26, 2010 was to revitalize the SAC as a vital link to the
     procurement community. The organization once again meets monthly and
     is considered a vital link for conducting meaningful and effective dialogue
     on procurement matters with the OAs. It is relied upon as a forum for
     resolving departmental procurement issues. SAC has facilitated a
     consistent focus and discussion on acquisition improvement and strategies,
     in areas including developing a Departmental Procurement Platform,
     achieving Contract Savings, increasing the Use of Strategic Sourcing,
     reducing High Risk Contracting, strengthening the Acquisition Workforce,
     and expanding opportunities for small businesses.

       SAC helps to ensure that acquisitions strategically contribute to DOT’s
       mission by improving communications throughout the Department. It also
       serves as an important forum for information exchange thanks to the
       participation of high-level internal and external officials in the meetings.
       Based on these and other efforts to revitalize OSPE’s working relationships
       with the DOT procurement community, we are convinced that were the
       OIG to conduct an update to its May 2010 survey, its results would be far
       more positive.


Overall, in a relatively short period of time, significant progress has been achieved
in strengthening OSPE. Thanks to the OIG review team’s openness to conducting
meaningful dialogue with management, it made a valued contribution to these
efforts. There is now a firm basis for moving forward to building a high
performance organization offering best in class services to the Department,
operating administrations, and the American taxpayer.

RECOMMENDATIONS AND RESPONSE

Recommendation 1: Develop a permanent procurement structure and
corresponding organizational roles and responsibilities for the Chief Acquisition
Officer and the Senior Procurement Executive that positions and empowers them
to effectively carry out their procurement duties.

Response: Concur in Part. In consultation with the Secretary and the Office of
General Counsel, OSPE will examine the organizational alignment and the
functions/roles of the Chief Acquisition Officer (CAO) and the Office of the


Appendix. AG ENCY COMMENTS
                                                                                 30


Senior Procurement Executive, in the context of the Service Acquisition Reform
Act (SARA). The outcome of this examination will be the identification of an
organizational structure that aligns activities and functions described in SARA, to
the fullest extent possible, consistent with organizational needs. Necessary
organizational analysis is ongoing, and we plan to consult with all necessary
offices in the coming months. We anticipate completing this action by December
30, 2011.

Recommendation 2: Permanently fill the Chief of Contracting Office position
and the Federal Procurement Data System-Next Generation Administrator
position.

Response: Concur. As identified in the OIG report, ensuring that leadership is in
place is a critical element of providing effective procurement leadership for the
Department. We are pleased to note that all leadership positions in OSPE have
now been filled. This includes completing the selection of an Associate Director
of Acquisition Operations. The incumbent in this position has been delegated
Chief of Contracting Officer responsibilities. Further, the position of Associate
Director for Integrated Systems Management and Reporting has also been filled.
The responsibilities under this official include staffing, and ultimately managing
the FPDS-NG Administrator position. We anticipate that the FPDS-NG
Administrator position will be filled, resources permitting, before March 30, 2012.

Recommendation 3: Create and implement a staffing plan that addresses OSPE's
current and anticipated future workload needs.

Response: Concur. As indicated above, all leadership positions in OSPE have
been filled. These include the Senior Procurement Executive, the Associate
Director of Policy Oversight, and Business Strategies, the Associate Director of
Integrated Systems Management and Reporting, the Associate Director of
Acquisition Operations, and the Associate Director of Commercial Services. Now
that these leadership positions have been filled, OSPE is working to complete a
more detailed staffing plan by December 30, 2011.

Recommendation 4: Develop measures to track achievement of OSPE's strategic
plan goals.

Response: Concur in part. We recognize the importance of utilizing the OSPE
strategic plan to guide overall management of the acquisition function. As we
continue to work through the issues in the OSPE, we anticipate reaching a better
position in the months ahead to establish new strategic goals, performance
measures, and improve tracking of our accomplishments. The first step, however
is to reexamine the existing strategic plan to ensure that it aligns with the new


Appendix. AG ENCY COMMENTS
                                                                               31


leadership’s goals. We anticipate completing a revised strategic plan before
September 30, 2012, and will implement measures to track achievement of the
plan at that time.

Recommendation 5: Finalize and set individual employee performance standards
that align with OSPE's strategic plan.

Response: Concur in Part. All employees have performance standards that are
rationally based and aligned with the Office’s objectives and have been updated to
align with ongoing strategic goals. For example, performance standards now
include measures relating to improving acquisition workforce management,
improving financial oversight, improving Contracting Officer Technical
Representative and project management performance; implementing
eProcurement, and implementing process improvements

We concur in part as we fully intend to revisit the OSPE strategic plan in the
future, based on broad guidance and requirements from (1) OMB, (2)
Departmental strategies defined in the SAC, and (3) internal discussions. As a
result, we anticipate that employee performance standards will continue to evolve
in alignment with these changes. We intend to have revised standards aligned
with a new OSPE strategic plan by June 30, 2013.

Recommendation 6: Develop comprehensive SOPs for its acquisition processes
and tasks that include specific steps, expected timeframes, and clearly assigned
roles and responsibilities.

 Response: Concur. After reviewing the organization’s operations and previous
efforts to construct Standard Operating Procedures (SOP) the SPE concluded that
SOPs will be useful and beneficial. Overall, we intend to implement a full set of
28 specific SOPs to help guide and standardize operations. The SPE has
prioritized the completion and implementation of these procedures into two
groups. Phase 1 includes 15 separate SOPs that are most critical to overall
operations and have been prioritized for completion by December 30, 2011. The
remaining 13 SOPS are in Phase 2, which are to be completed by June 30, 2012.
The SPE has assigned responsibility for completing these procedures throughout
the organization. Once completed, they will be posted on SharePoint site, and
staff will be trained in their use to facilitate consistent implementation.

Recommendation 7: Implement a process delineating staff roles and
responsibilities to ensure TAR and TAM remain up-to-date.

Response: Concur. OSPE is in the process of developing a comprehensive
approach to updating and maintaining the TAR and TAM. First, the office


Appendix. AG ENCY COMMENTS
                                                                                   32


replaced the TAR/TAM updating software with a more efficient and less costly
method for records upkeep and retention. The office is now developing and
prioritizing a specific update plan to bring the TAR/TAM fully up to date with
FAR, OMB Memos, departmental orders, OSPE interim guidance, and other best
business practices. While interim guidance will continue to be available to the
OAs as the TAR/TAM is updated, due to the volume of materials involved,
management anticipates that it will publish the final products by December 1,
2013.
Subsequently, OSPE intends to deploy a systematic approach to maintaining the
TAR/TAM that will be enumerated in a maintenance plan that describes staffing
assignments and supporting policies and procedures for document revision and
version management.

Recommendation 8: Issue guidance that re-emphasizes the requirement that COs
and contract specialists use DOT's standard contract checklist to maintain accurate
and complete contract records.

Response: Concur. Guidance to re-emphasize the requirement that contract
specialists use DOT’s standard contract checklist to maintain accurate and
complete contract records was provided to M-63 staff in January 2011. Since
then, the DOT standard contract checklist is being utilized. Further, all new award
contract files since that date are reviewed prior to signature to ensure the checklist
is utilized and to provide other quality assurance checks. As a result, action
pursuant to this recommendation is considered complete and management will
provide supporting documentation by May 31, 2011.

OSPE is also implementing other actions with regard to contract files, which is
one of the areas identified as a priority in revising the OSPE SOPs. While there
are existing requirements, we intend to both identify required documentation and
explain processes and procedures in more detail. In addition, to provide another
level of controls in this important area, OSPE is planning to establish a Quality
Review Board. The Quality Review Board will meet quarterly and randomly
select contract files for review and provide findings/feedback to the Acquisitions
Director and contracting staff members.

Recommendation 9: Require the Acquisition Career Manager and supervisors to
review and approve ACMIS information for all employees to ensure its accuracy.

Response: Concur in part. OSPE has established checks and balances to support
an overall process which ensures that training records for the acquisition
workforce are accurate. OSPE management will review each of its employees
ACMIS entries and verify their accuracy by June 30, 2011.



Appendix. AG ENCY COMMENTS
                                                                                   33


Recommendation 10: Ensure that FPDS-NG data quality reviews are conducted
and documented.

Response: Concur. OSPE will continue conducting required data quality review
and validation activities to ensure that tracking system information is as accurate
as possible. In January 2011, the Department completed its Independent
Validation & Verification Report of 2010 FPDS-NG data. A copy of this report
has been provided to the OIG. While we will continue this reporting in the future,
action pursuant to this recommendation is considered complete.

Recommendation 11: Create and implement a procedure to ensure that
employees leaving the Agency have their access to procurement systems
terminated as part of the checkout process.

Response: Concur. As of August 2010, OSPE receives “Clearance and
Document Removal” forms and provides a copy to the system administrator for
acquisition systems. The system administrator then logs the request in a
spreadsheet, checks all systems, removes the employee from all applicable
systems and updates the spreadsheet. OA’s have system administrators
responsible for maintaining their own active user lists. Action pursuant to this
recommendation is considered complete.

Recommendation 12: Establish and implement regular reviews of the
procurement database user access lists to ensure that current employees' access
rights are properly maintained and modified, as needed.

Response: Concur. Beginning October 2010, a list of all active users is sent bi-
annually to the respective OST managers seeking validation and verification of the
need for continued user access at the access level stated. This information is used
to adjust or eliminate access as appropriate. Action pursuant to this
recommendation is considered complete and documentation will be provided by
May 31, 2011.

Recommendation 13: Develop and maintain a comprehensive list of OSPE's
contracts.

Response: Concur. In January 2011, OST Acquisition Services established a
Process Action Team, in part, to reconcile an active contract list with FPDS-NG
and PRISM to ensure accuracy. We anticipate having a final, reconciled list by
December 30, 2011.




Appendix. AG ENCY COMMENTS
                                                                                 34


Recommendation 14: Create and implement a process for periodically
reconciling a comprehensive list of OSPE's contracts to its contract files and
procurement databases.

Response: Concur. In January 2011, OSPE implemented revised systems for
contract file and procurement database management. The Process Action Team is
also developing a process to complete periodic reconciliations of the active
contract list with FPDS-NG and PRISM. We anticipate formalizing this process
by December 30, 2011.

Recommendation 15: Update and maintain the PRISM Contingency Plan to
comply with Federal regulations.

Response: Concur. The Prism Contingency Plan has been updated and was
approved by the DOT Security Officer on August 4, 2010. OSPE is in the process
of testing and reviewing the plan and will complete any modifications necessary
before December 30, 2011. Subsequently, the plan will be tested and maintained
in accordance with Federal requirements.




Appendix. AG ENCY COMMENTS
